    COMPILATION OF THE FY 1999 ARMY GENERAL FUND
    FINANCIAL STATEMENTS AT THE DEFENSE FINANCE
     AND ACCOUNTING SERVICE INDIANAPOLIS CENTER

Report No. D-2000-160                          July 12, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AAA                   Army Audit Agency
CFOFS                 Chief Financial Officers Financial System
DFAS                  Defense Finance and Accounting Service
                          Office of the Inspector General, DoD
Report No. D-2000-160                                                       July 12, 2000
 (Project No. 0FI-2116)


        Compilation of the FY 1999 Army General Fund Financial
        Statements at the Defense Finance and Accounting Service
                           Indianapolis Center

                                 Executive Summary

Introduction. The Defense Finance and Accounting Service Indianapolis Center
maintains the Army departmental accounting records and compiles the Army General
Fund financial statements. This audit was performed in response to the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994.
The Chief Financial Officers Act requires the Inspector General, DoD, to audit the
financial statements of DoD organizations in accordance with generally accepted
Government auditing standards. We delegated the audit of the FY 1999 Army General
Fund financial statements to the Army Audit Agency, but we assisted them by
performing some of the audit work at the Indianapolis Center. The Army Audit
Agency disclaimed an opinion on the FY 1999 Army General Fund financial
statements, and we concurred with the disclaimer of opinion. The FY 1999 Army
Consolidated Balance Sheet reported total assets of $72.3 billion and total liabilities of
$34.9 billion. The consolidated Statement of Net Cost reported net program costs of
$69.8 billion for the period ending September 30, 1999. The combined Statement of
Budgetary Resources reported total budgetary resources of $90.6 billion.

Objective. Our objective was to determine whether the Defense Finance and
Accounting Service Indianapolis Center consistently and accurately compiled financial
data from field organizations and other sources for the FY 1999 Army General Fund
financial statements. We also reviewed the management control program as it related
to the objective.

Results. The Defense Finance and Accounting Service Indianapolis Center’s
compilation of financial data from field entities and other sources into the FY 1999
Army General Fund financial statements was not in compliance with applicable laws
and regulations.

The Defense Finance and Accounting Service Indianapolis Center processed 380
accounting entries, valued at $469.7 billion, while compiling the FY 1999 Army
General Fund financial statements. Although the value of unsupported accounting
entries decreased from about $672.9 billion in FY 1998 to $290.2 billion in FY 1999,
the Army General Fund financial statements still were not auditable. Also,
85 accounting entries, valued at about $60.0 billion, were not recorded in the
accounting records supporting the FY 1999 Army General Fund financial statements.
As a result, the FY 1999 Army General Fund financial statements contained
unsupported accounting data and could not be reconciled to supporting accounting
records.

See Appendix A for details of the management control program as it relates to controls
over the automated processes used to compile the FY 1999 Army General Fund
financial statements.

Summary of Recommendations. We recommend that accounting entries prepared to
correct discrepancies between sources of accounting data be documented, with an
explanation of the reason for the discrepancy in the source data amounts. Further,
explanations should be documented as to how the proper authoritative source
determined that the entries included in the accounting entries are correct. We
recommend establishing independent quality assurance reviews of accounting entries.
We also recommend full integration of the accounting entry preparation process into the
compilation process by establishing an automated bridge for accounting entries.

Management Comments. The Defense Finance and Accounting Service concurred
with all recommendations except establishing independent quality assurance reviews of
accounting entries. Instead, the Defense Finance and Accounting Service proposed
requiring specific approval of supporting documentation as part of the accounting entry
approval process. See the Finding section for the discussion of management comments
and Management Comments for the complete text of management comments.

Audit Response. We consider the comments and proposed actions from the Defense
Finance and Accounting Service to be responsive to the recommendations. Although
we continue to believe that independent quality assurance reviews of accounting entries
are necessary to ensure proper preparation of accounting entries, we accept the alternative
proposal at this time and will see how it works during our review of accounting entries
for the audit of the FY 2000 Army General Fund financial statements.




                                            ii
Table of Contents

Executive Summary                              i

Introduction
     Background                                1
     Objectives                                2

Finding
     Accounting Entries                        3

Appendixes
     A. Audit Process
         Scope and Methodology                11
         Management Control Program           12
     B. Summary of Prior Coverage             14
     C. Report Distribution                   15

Management Comments
     Defense Finance and Accounting Service   17
Background
    This is the second in a series of reports issued by the Inspector General, DoD,
    related to the Army General Fund financial statements. The first report was on
    our oversight of the Army Audit Agency (AAA) audit of the FY 1999 Army
    General Fund financial statements. This report summarizes the compilation
    process at the Defense Finance and Accounting Service (DFAS) Indianapolis
    Center.

    Chief Financial Officers Act. This audit was performed in response to the
    Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994. The Chief Financial Officers Act requires the annual
    preparation and audit of financial statements for trust funds, revolving funds,
    and substantial commercial activities of Executive departments and agencies, as
    well as Government corporations. The Chief Financial Officers Act also
    requires the Inspectors General, or appointed external auditors, to audit financial
    statements in accordance with generally accepted Government auditing standards
    and other standards established by the Office of Management and Budget.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act of 1996 requires each Federal agency
    to implement and maintain financial management systems that comply with
    Federal financial management system requirements, applicable Federal
    accounting standards, and the U.S. Government Standard General Ledger at the
    transaction level.

    Role of the Defense Finance and Accounting Service Indianapolis
    Center. The DFAS Indianapolis Center, Indianapolis, Indiana, provides
    finance and accounting support to the Army and the Defense agencies. Support
    includes maintaining departmental accounting records and preparing financial
    statements from general ledger trial balances and financial data on the status of
    appropriations submitted by DoD field accounting entities and other sources.
    However, the compilation process is complicated because financial data
    submitted to DFAS Indianapolis Center are not generated by integrated,
    transaction-driven, general ledger accounting systems.
    The Compilation Process. Since FY 1991, DFAS Indianapolis Center used a
    complex interim process to combine financial information from many
    accounting and budgetary subsystems to compile the Army General Fund
    financial statements. At fiscal year-end, field accounting entities supported by
    DFAS Indianapolis Center submitted a general ledger trial balance directly to
    the departmental general ledger module of the Headquarters Accounting and
    Reporting System. The general ledger data were consolidated into several
    microcomputer databases. General ledger adjustments were accumulated in an
    additional database. Adjustments were made for many reasons, including



                                         1
     changing general ledger accounts to match certified status-of-appropriations
     data, to record data received from nonaccounting sources on selected assets and
     liabilities, and to record auditor-recommended adjustments. After the general
     ledger adjustments were made, DFAS Indianapolis Center used a variety of
     microcomputer programs and applications to convert the databases into the
     FY 1999 Army General Fund financial statements. The Chief Financial
     Officers Reporting Team of the DFAS Indianapolis Center Accounting
     Directorate is responsible for compiling the Army General Fund financial
     statements.

     FY 1999 Army General Fund Financial Statements. The FY 1999 Army
     General Fund financial statements consisted of the consolidated balance sheet,
     consolidated Statement of Net Cost, consolidated Statement of Changes in Net
     Position, combined Statement of Budgetary Resources, and combined Statement
     of Financing, along with the supporting footnotes, supplementary schedules, and
     a management overview. The FY 1999 Army Consolidated Balance Sheet
     reported total assets of about $72.3 billion and total liabilities of about
     $34.9 billion as of September 30, 1999. The FY 1999 Army Consolidated
     Statement of Net Cost reported net program costs of about $69.8 billion for the
     fiscal year ending September 30, 1999. The combined Statement of Budgetary
     Resources reported total budgetary resources of $90.6 billion.

     Audit of the FY 1999 Army General Fund Financial Statements. We
     delegated the FY 1999 audit of the Army General Fund financial statements to
     AAA. We assisted AAA by performing some audit work at DFAS Indianapolis
     Center, including examining the processes used to prepare the FY 1999 Army
     General Fund financial statements. The AAA disclaimed an opinion on the
     FY 1999 Army General Fund financial statements, and we concurred with the
     disclaimer of opinion. The AAA could not express an opinion on the financial
     statements primarily because of continual problems with inadequate accounting
     systems, insufficient audit trails, and procedural problems.



Objectives
     The audit objective was to determine whether DFAS Indianapolis Center
     consistently and accurately compiled financial data from field organizations and
     other sources for the FY 1999 Army General Fund financial statements. We
     also reviewed the management control program as it related to the objective.

     See Appendix A for a discussion of the audit process, the management control
     program at DFAS Indianapolis Center, and the management control weakness
     found during our audit. See Appendix B for a list of prior audits at DFAS
     Indianapolis Center related to the audit objective.



                                         2
            Accounting Entries
            The DFAS Indianapolis Center processed 380 accounting entries, valued
            at $469.7 billion, while compiling the FY 1999 Army General Fund
            financial statements. Of the 380 accounting entries, 192 were
            unsupported accounting entries, valued at about $290.2 billion. Also,
            DFAS Indianapolis Center did not record 85 accounting entries, valued
            at about $60.0 billion, in the accounting records supporting the FY 1999
            Army General Fund financial statements. The 192 accounting entries
            were unsupported because DFAS Indianapolis Center did not fully
            implement or enforce the DFAS guidance on the preparation of
            accounting entries. The DFAS Indianapolis Center did not record the 85
            accounting entries in the accounting records because it did not adequately
            integrate new automated improvements into the compilation process. As
            a result, the FY 1999 Army General Fund financial statements contained
            unsupported accounting data and could not be reconciled to supporting
            accounting records. Consequently, the FY 1999 Army General Fund
            financial statements were not auditable.

Preparing Accounting Entries
    The DFAS Indianapolis Center prepared 380 accounting entries, valued at about
    $469.7 billion, while compiling the FY 1999 Army General Fund financial
    statements. The entries included 192 unsupported accounting entries, valued at
    about $290.2 billion. Table 1 summarizes the values of accounting entries that
    DFAS Indianapolis Center made to the general ledger for FYs 1998 and 1999.


                     Table 1. FYs 1998 and 1999 Army General Fund
                             Departmental Accounting Entries
                                           (amounts in billions)
                       Purpose of Accounting Entries                   FY 1998    FY 1999
     Forcing general ledger accounting data to match certified           $511.8     $130.5
     budgetary status-of-appropriations data
     Buyer-seller adjustments                                               -         60.9
     Net position adjustments                                             161.1       12.5
     Other adjustments to correct discrepancies between data sources        -          5.5
      Subtotal: Unsupported Accounting Entries to Correct                $672.9     $209.4
       Discrepancies
     Other unsupported adjustments                                          -         80.8
      Total: Unsupported Accounting Entries                              $672.9     $290.2
     All Others – Supported                                               320.4      175.4
     12 vouchers not reviewed                                               -          4.1
        Total Accounting Entries                                         $993.3     $469.7




                                               3
Accounting Entries to Correct Discrepancies. While preparing the FY 1999
Army General Fund financial statements, DFAS Indianapolis Center prepared
141 accounting entries, for about $209.4 billion, to correct discrepancies
between sources of accounting data. The DFAS issued guidance, Defense
Finance and Accounting Service Memorandum, “Journal Voucher Guidance,”
October 28, 1999, stating the following:

           When the proper authoritative source has determined that there is a
           discrepancy in data between two or more sources, a correcting journal
           voucher must be prepared. Evidence to support this type of journal
           voucher includes source data documentation and related analysis
           documenting the correct amount. In addition, the journal voucher must
           document why there was a discrepancy in the source data amounts and
           how the proper authoritative source determined that the entries included
           on the journal voucher are correct.


In this report, journal vouchers are called accounting entries. The DFAS
Indianapolis Center did not implement the guidance.

       •   DFAS Indianapolis Center personnel prepared two accounting entries
           for about $130.5 billion, to force general ledger accounting data to
           agree with budgetary accounting data. They prepared the accounting
           entries because the accounting systems used to compile the FY 1999
           Army General Fund financial statements did not conform to the
           general ledger method of accounting, and DFAS Indianapolis Center
           personnel believed budgetary accounting data to be more accurate.
           However, the adjustments did not include evidence supporting that
           belief. The two accounting entries for $130.5 billion were
           unsupported because DFAS Indianapolis Center personnel made the
           adjustment to force general ledger accounting data to agree with
           budgetary accounting data without attempting to reconcile the
           differences between the two data sources or to determine which data
           source was correct.
       •   DFAS Indianapolis Center personnel prepared 93 accounting entries,
           for about $60.9 billion, to force intragovernmental transactions
           between trading partners to agree. The personnel forced buyers’
           transaction data that DFAS Indianapolis Center recorded to agree
           with sellers’ transaction data recorded by the other DFAS centers.
           Those adjustments were not supported because DFAS Indianapolis
           Center personnel did not reconcile the differences between the two
           data sources to determine which was correct. Office of the Under
           Secretary of Defense (Comptroller) personnel stated that the guidance
           requiring the buyer and seller data to match was the result of
           requirements that the U.S. Treasury issued for Federal agencies’
           Centralized Trial Balance Systems submission.




                                         4
       •   DFAS Indianapolis Center personnel prepared 29 accounting entries,
           for about $12.5 billion, to force the net position amount reported on
           the Statement of Changes in Net Position to agree with the net
           position amount reported on the balance sheet. The accounting
           entries were necessary because the accounting systems used to
           compile the Army General Fund financial statements did not support
           the reporting of equity accounts. The accounting entries were
           unsupported because DFAS Indianapolis Center personnel did not
           reconcile the differences between the two statements to demonstrate
           which was correct.
       •   DFAS Indianapolis Center personnel prepared 17 other accounting
           entries, for about $5.5 billion, to correct discrepancies between
           sources of accounting data, generally to force general ledger
           accounting data to match reports prepared from other sources of data.
           DFAS Indianapolis Center personnel did not reconcile the differences
           between the two data sources to determine which was correct.

The DFAS Indianapolis Center relied on its Headquarters Accounting and
Reporting System to prepare the FY 1999 Army General Fund financial
statements. However, that system did not meet accounting system
requirements. Until DFAS implements an integrated, transaction-driven
accounting system Army-wide, DFAS Indianapolis Center must use accounting
data from often conflicting sources to prepare the Army General Fund financial
statements. If DFAS does not reconcile the differences among the conflicting
sources of accounting data, DFAS has no assurance that it is using the most
accurate accounting data for financial reporting. The DFAS Indianapolis Center
should fully implement the DFAS journal voucher guidance on the preparation
of accounting entries to correct discrepancies between sources of accounting
data.

Other Accounting Entries. While preparing the FY 1999 Army General Fund
financial statements, DFAS Indianapolis Center personnel prepared 227
accounting entries, valued at about $256.2 billion, for reasons other than to
correct discrepancies between sources of accounting data. Of the accounting
entries, 51 entries, for about $80.8 billion, were not supported by the
documentation that the DFAS guidance on journal vouchers required. Of the
unsupported accounting entries, 19 entries, valued at $2.8 billion, were for
corrections of errors made in previously prepared entries. DFAS Indianapolis
Center personnel prepared the remaining accounting entries (32 for $78 billion)
to record data provided by other than accounting sources, or “data calls.” The
DFAS guidance on journal vouchers states the following:

           Frequently, source-entry information is provided by data calls where
           the data are not recorded on a detailed, transaction basis. Thus,
           journal vouchers must be prepared to record the summarized data call
           amounts, so these amounts can be recorded in the general ledger trial
           balance. Data call information, in most cases, is provided by an
           independent source. Evidence to support the journal voucher includes



                                        5
          the transmission record of these data in conjunction with a
          determination by the designated authoritative source (i.e., the releaser
          of the data) that the source data are valid.

Although DFAS Indianapolis Center had generally met the DFAS requirements
in the previous year, support for the accounting entries prepared for FY 1999
was inconsistent. For example, the two accounting entries made to record
environmental liabilities, about $49.9 billion, did not include the data
transmission record to prove that the data were provided by an authoritative
source. In previous years, the accounting entries made to record environmental
liabilities had been properly documented. Because the Army did not have an
adequate accounting system, the preparation of the Army General Fund financial
statements depended on using accounting entries to record accounting data from
sources outside normal accounting channels. If the accounting entries are not
adequately supported, the financial statements will continue to be unauditable.

Implementing and Enforcing DFAS Guidance. The DFAS Indianapolis
Center did not fully implement or enforce the DFAS guidance on the
preparation of journal vouchers. DFAS Indianapolis Center did not implement
requirements that DFAS established for documenting accounting entries made to
correct discrepancies between sources of accounting data. In addition, standards
of documentation for other types of accounting entries, generally met in the
previous year, were not consistently enforced for accounting entries prepared
for FY 1999. The preparation and review of all the accounting entries prepared
at year-end were performed entirely within the Chief Financial Officers
Reporting Team. In previous years, a separate team had performed quality
assurance reviews. However, that practice was discontinued for FY 1999, so no
independent quality assurance reviews took place to ensure compliance with the
DFAS guidance. The DFAS Indianapolis Center should reestablish independent
quality assurance reviews to implement and enforce DFAS guidance on
accounting entries.

Effects of Accounting Entries. Unsupported accounting entries had a material
impact on the FY 1999 Army General Fund financial statements. Table 2 shows
the effects of departmental accounting entries for three selected financial
statement lines.




                                        6
        Table 2. Effects of Departmental Accounting Entries on the FY 1999
                     Army General Fund Financial Statements
                       for Selected Financial Statement Lines
                                 (amounts in billions)
                                  Unadjusted   Unsupported      Other        Adjusted
               Selected            Balance     Accounting     Accounting     Balance
       Financial Statement Line                  Entries       Entries
     Fund Balance With Treasury        $36.9         ($4.7)          $0.0        $32.2
     Accounts Payable                    6.4          (3.7)           3.5          6.2
     Unexpended Appropriations         111.2         (85.8)          (0.7)        24.7

    Because of the material impact of unsupported accounting entries, the FY 1999
    Army General Fund financial statements were materially influenced by
    unsupported accounting data. As a result, the FY 1999 Army General Fund
    financial statements were not auditable.

Improving the Compilation Process
    The DFAS Indianapolis Center prepared 85 accounting entries, valued at about
    $60.0 billion, that it did not record in the accounting records supporting the
    FY 1999 Army General Fund financial statements. The accounting records did
    not record the 85 accounting entries because DFAS Indianapolis Center did not
    adequately integrate automated improvements into the financial statement
    compilation process.

    Compilation Process Improvement. In September 1999, DFAS fielded the
    Chief Financial Officers Financial System (CFOFS), an automated financial
    statement formatting tool. The purpose of CFOFS was to ensure that all DFAS
    centers produced compatible financial statements. However, the introduction of
    CFOFS required DFAS Indianapolis Center to add an additional step to its
    compilation process. To use CFOFS, DFAS Indianapolis Center personnel had
    to accumulate the Army General Fund financial statement data from the various
    Army accounting systems, convert the financial data from the DoD general
    ledger to the U.S. Government Standard General Ledger, and summarize the
    converted data at the program level. DFAS Indianapolis Center personnel then
    were to type the summarized data into a spreadsheet that CFOFS used to build
    the financial statements. To avoid the delays and risk of data entry error
    inherent in manually typing a large volume of numbers into a spreadsheet, the
    DFAS Indianapolis Center developed an automated bridge to load the
    accounting data into the CFOFS input spreadsheet.

    Accounting Entry Preparation. The addition of the CFOFS also complicated
    the processing of accounting entries. Each accounting entry had to be recorded
    twice; once in the supporting accounting records, and once in the CFOFS
    journal voucher function. However, DFAS Indianapolis Center did not develop


                                          7
    an automated bridge to overcome the requirement for dual entry of accounting
    entries. During the months immediately after the end of FY 1999, DFAS
    Indianapolis Center personnel kept up with the requirement to enter each
    adjusting journal voucher into both the accounting records and CFOFS. As a
    result, the initial version of the FY 1999 Army General Fund financial
    statements could be reconciled to the supporting accounting records. However,
    to meet the February 2, 2000, statement deadline, DFAS Indianapolis Center
    personnel recorded accounting entries into CFOFS only.

    Reconciliation to Accounting Records. Because the supporting accounting
    records did not include accounting entries, the accounting records and the
    financial statements had material differences, as shown in Table 3.


          Table 3. Differences Between Supporting Accounting Records and
                the FY 1999 Army General Fund Financial Statements
                        for Selected Financial Statement Lines
                                   (dollars in billions)
               Selected           Financial     Financial    Difference:   Difference:
       Financial Statement Line     Data       Statements     Amount        Percent
     Liabilities Covered by
                                  $17.6         $11.5           $6.1           65
     Budgetary Resources
     Program Costs:
                                    12.6         14.6            2.0          116
     Intragovernmental
     Net Cost of Operations         77.4         69.8            7.6           90


    Because the FY 1999 Army General Fund financial statements could not be
    reconciled to the supporting accounting data, they could not be audited. The
    DFAS Indianapolis Center should fully integrate the preparation of accounting
    entries into the compilation process by establishing an automated procedure to
    load accounting entries recorded in the supporting accounting records into the
    CFOFS.



Conclusion
    For more than 8 years, budgetary status-of-appropriations data and expenditure
    data were used to compile financial data for the Army General Fund financial
    statements. That interim method is not acceptable. The Army General Fund
    financial statements may not be auditable until an integrated, transaction-driven
    accounting system is implemented Army-wide. We addressed that condition in
    our audit report on the compilation of the FY 1998 Army General Fund
    financial statements; therefore, we do not discuss the matter further or make
    additional related recommendations in this report.


                                           8
    Until an integrated, transaction-driven accounting system is implemented
    Army-wide, DFAS Indianapolis Center must continue to rely on accounting
    entries to prepare the Army General Fund financial statements. The DFAS
    Indianapolis Center should implement and enforce the DFAS journal voucher
    guidance and should fully integrate the preparation of accounting entries into the
    compilation process. Unless the accounting entries are properly documented
    and recorded in the supporting financial records, the Army General Fund
    financial statements will not auditable.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Finance and Accounting Service
    Indianapolis Center:

    1. Implement and enforce the Defense Finance and Accounting Service
    compilation guidance on the preparation of journal vouchers. Specifically:

               a. Document accounting entries prepared to correct
    discrepancies between sources of accounting data with an explanation for
    the discrepancy in the source data amounts and the methods that the proper
    authoritative source used to determine that the amounts included in the
    accounting entry are correct.

    Management Comments. The Defense Finance and Accounting Service
    concurred, stating that it would complete revised guidance implementing the
    recommended action by September 30, 2000.

               b. Establish independent quality assurance reviews of accounting
    entries.

    Management Comments. The Defense Finance and Accounting Service
    partially concurred, suggesting as an alternate solution the revision of existing
    guidance to require managers reviewing accounting entries to specifically
    approve supporting documentation as part of the review process. The Defense
    Finance and Accounting Service estimates the alternative action to be completed
    by September 30, 2000. The Defense Finance and Accounting Service further
    stated that an additional independent quality assurance review would not
    improve managerial controls over the preparation of accounting entries.

    Audit Response. Although the Defense Finance and Accounting Service
    partially concurred, we consider the comments responsive to the
    recommendation. While we continue to believe that independent quality
    assurance reviews of accounting entries are necessary to ensure proper




                                        9
preparation of accounting entries, we will accept the proposed corrective action
and see how it works during our review of accounting entries for the audit of the
FY 2000 Army General Fund financial statements.

2. Fully integrate the accounting entry preparation process into the
compilation process by establishing an automated bridge for adjustments
between the Army General Fund journal voucher data file and the Chief
Financial Officers Financial System.

Management Comments. The Defense Finance and Accounting Service
concurred, stating that the Chief Financial Officers Financial System will be
replaced by the Defense Departmental Reporting System, which will have
automated input for all transactions. The estimated completion date for this
action is December 31, 2000.




                                   10
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. Our review of the compilation of the FY 1999 Army
    General Fund financial statements covered processes, procedures, and related
    management controls that DFAS Indianapolis Center used to consolidate
    financial data from field organizations and other sources. The data were used to
    prepare the version of the Army General Fund financial statements submitted to
    the auditors on February 3, 2000. Our examination included a review of the
    following processes:

           •   205 journal vouchers adjustments, valued at $67.6 billion, made to
               status data;

           •   380 accounting entries, valued at $469.7 billion, made to general
               ledger data; and

           •   the transfer of status-adjusted general ledger data to the printed
               financial statements, including the overview, footnotes, and
               supplementary schedules.

    Limitations to Audit Scope. We did not examine the accuracy of data that
    DoD field accounting entities or other sources submitted or attempt to reconcile
    data with subsidiary records. Examination of the data is the responsibility of
    AAA. We compared the Fund Balance With Treasury recorded by the U.S.
    Treasury for the Army General Fund with the Fund Balance With Treasury
    reported in the Army General Fund financial statements. We also reviewed the
    closing positions of Army General Fund appropriations for deficit balances and
    general ledger trial balances for reasonableness.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)


                                        11
           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. To achieve the audit objective, we relied
    primarily on computer-processed data in the SOURCE21, JVDATA,
    ODODAR, and OSCFO databases. We tested the data and determined that they
    were incomplete. However, when the data are reviewed in context with other
    available evidence, we believe that the opinions, conclusions, and
    recommendations in this report are valid. Field-level systems were not included
    in our review. Therefore, we can comment only on the reliability of data
    processed after receipt by DFAS Indianapolis Center.

    Audit Type, Period, and Standards. We performed this financial-related audit
    at DFAS Indianapolis Center from August 1999 through March 2000. The audit
    was made in compliance with auditing standards established by the Comptroller
    General of the United States, as implemented by the Inspector General, DoD,
    and with Office of Management and Budget guidance; however, we limited our
    scope as noted in this appendix. The audit included such tests of management
    controls and management’s compliance with laws and regulations as we
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides a reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.



                                       12
Scope of the Review of the Management Control Program. We evaluated
management controls over the DFAS Indianapolis Center’s processes and
procedures for consolidating financial data from field organizations and other
sources for preparation of the FY 1999 Army General Fund financial
statements.

Adequacy of Management Controls. A material management control
weakness, as defined by DoD Instruction 5010.40, Management Control
Program Procedures, August 28, 1996, existed in the DFAS Indianapolis
Center’s procedures for compiling the FY 1999 Army General Fund financial
statements. Management controls at DFAS Indianapolis Center were not
adequate to ensure that accounting entries were adequately documented and
recorded in Army accounting records. Recommendations 1. and 2. in this
report, if implemented, will improve controls over accounting entries. A copy
of the report will be provided to the senior official responsible for management
controls at DFAS Indianapolis Center.

Adequacy of Management’s Self-Evaluation. DFAS Indianapolis Center
officials identified chief financial officers reporting as an assessable unit but did
not perform an evaluation because no evaluations were scheduled to be
completed until FY 2001.




                                     13
Appendix B. Summary of Prior Coverage

General Accounting Office
    General Accounting Office Report No. AFMD-92-83 (OSD Case No. 8674),
    “Financial Audit: Examination of the Army’s Financial Statements for Fiscal
    Year 1991,” August 7, 1992.

    General Accounting Office Report No. AFMD-93-1 (OSD Case No. 9276-E),
    “Financial Audit: Examination of the Army’s Financial Statements for Fiscal
    Years 1992 and 1991,” June 30, 1993.



Inspector General, DoD
    Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” May 12, 1999.

    Inspector General, DoD, Report No. 98-212, “Compilation of the FY 1997
    Army General Fund Financial Statements at the Defense Finance and
    Accounting Service Indianapolis Center,” September 24, 1998.

    Inspector General, DoD, Report No. 98-120, “Compilation of the FY 1996
    Army Financial Statements at the Defense Finance and Accounting Service
    Indianapolis Center,” April 23, 1998.
    Inspector General, DoD, Report No. 96-161, “Compilation of the FY 1995 and
    FY 1996 DoD Financial Statements at the Defense Finance and Accounting
    Service Indianapolis Center,” June 13, 1996.

    Inspector General, DoD, Report No. 94-168, “Defense Finance and Accounting
    Service Work on the Army FY 1993 Financial Statements,” July 6, 1994.




                                      14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform




                                     16
Defense Finance and Accounting Service
Comments




                   17
                                   *




                              18
*Omitted because of length.
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore D. Guli
     Richard B. Bird
     Jack L. Armstrong
     Paul C. Wenzel
     Lee M. Carter
     Delpha W. Martin
     Noelle G. Blank
